         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Audit Report

Naval Reactors Information
Technology System Development
Efforts




DOE/IG-0879                        December 2012
                                 Department of Energy
                                     Washington, DC 20585

                                       December 21, 2012

MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on the "Naval Reactors Information
                         Technology System Development Efforts"

INTRODUCTION AND OBJECTIVE

The Naval Reactors Program (Naval Reactors), an organization within the National Nuclear
Security Administration, was established to provide the military with safe and reliable nuclear
propulsion plants to power warships and submarines. Naval Reactors maintains responsibility
for activities supporting the U.S. Naval fleet nuclear propulsion systems, including research and
design, operations and maintenance, and the ultimate disposition of the nuclear propulsion
plants. Naval Reactors is funded by both the Department of Energy and the U.S. Department of
the Navy. To support its mission, the program and its contractors utilize logistical, financial
management and human resources information technology (IT) systems.

In 2006, Naval Reactors initiated an effort to reduce overhead costs associated with duplicative
services among its prime contractors. The effort resulted in the decision to develop an integrated
Enterprise Business System (EBS) project that included procurement, finance, human resources
and logistics modules. The EBS project is a multi-year, multi-million dollar development effort
that will be completed using a phased approach. The procurement module alone is expected to
cost approximately $12.8 million, and Naval Reactors is in the initial stages of developing the
finance module at additional cost. In an effort to address development issues, Naval Reactors
performed an internal assessment of EBS during 2009. Due to the nature and scope of system
development activities and mission importance, we initiated this audit to determine whether
Naval Reactors effectively managed its information systems development efforts.

RESULTS OF AUDIT

We found that Naval Reactors had taken a number of positive actions designed to resolve
development issues associated with EBS. In particular, management had taken actions to
address problems identified during its 2009 internal assessment, including issues with project
execution plans, budgets and schedules. Despite these actions, our review identified continuing
system development issues. In particular:

   •   Contrary to Office of Management and Budget (OMB) guidance and the EBS project
       mission statement, neither Naval Reactors officials nor the project contractors had
       adequately considered the use of a commercial-off-the-shelf (COTS) product prior to
       upgrading and modernizing the financial components of EBS. Specifically, the project
       team was unable to provide any formal analyses or justification for developing the system
       in-house. In addition, we found that Naval Reactors had encountered delays in the EBS
       development effort, resulting in additional costs and a later than expected completion
       date; and,

   •   Although previously identified as an issue in a 2009 internal assessment conducted by
       Naval Reactors, we found that the EBS project had still not been reported to the
       Department and OMB as a Major IT Investment, as required. Despite spending
       approximately $10 million of the budgeted $12.8 million for the procurement phase of
       the EBS development effort, officials had not submitted the required budgetary
       information to the Department or OMB, an action that could have allowed for improved
       performance monitoring.

The weaknesses identified were due, in part, to the lack of adherence to Federal and Naval
Reactors policies and procedures. In particular, the decision to develop an in-house system
rather than acquiring a COTS product was reportedly based solely on a decision of a senior
official even though no alternative analysis was documented. Also, the EBS development effort
did not follow Federal budgetary guidance for the reporting of IT investments, including
submission of a capital asset plan to OMB.

Furthermore, we noted that a lack of a coordinated effort between the project stakeholders and
team members likely contributed to project delays and cost increases. In particular, although the
project manager at the site was assigned responsibility for successful completion of the EBS
project, we noted that programming decisions were not being handled by that individual.
Instead, a Naval Reactors Headquarters official was responsible for the day-to-day programming
decisions. These communication problems contributed to conflicting status information
regarding the project's progress. While the lack of full coordination alone did not necessarily
result in the project being behind schedule, the communication problems were exacerbated by
inadequate, decentralized tracking of project tasks. Had officials implemented an effective
mechanism for tracking project progress, tasks that were behind schedule could have been
addressed in a coordinated manner by everyone involved in the project.

Without adherence to appropriate system development requirements, future information system
development efforts may experience problems similar to those identified in our report related to
project management and result in schedule delays and cost overruns. Specifically, by not
reporting IT investments to the Department and OMB, future efforts may not receive the
appropriate Federal oversight needed to help ensure successful implementation. In addition, a
formal analysis comparing the use of a COTS product to development of a system in-house can
help ensure that the most cost effective solution is utilized.

We believe the issues identified provide valuable lessons learned that should be considered for
any future development efforts. Notably, Naval Reactors told us that it had initiated action to




                                                2
correct issues we observed and had requested that its contractor conduct an alternative analysis to
determine whether the development of the EBS finance module should be an in-house effort or a
COTS product.

While it may not be practical to complete formal analyses for certain components of the EBS
project at this point in time, management should utilize this as lessons learned when considering
implementation of other information systems. As such, we made several recommendations that,
if fully implemented, should provide the opportunity to improve Naval Reactors' ability to
effectively and efficiently manage future IT system development projects.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and indicated that it will
take necessary corrective actions. Management expressed concern with several conclusions in
our report. Our responses to these matters are summarized in the body of the report.
Management's comments are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Chief of Staff




                                                3
REPORT ON NAVAL REACTORS INFORMATION TECHNOLOGY
SYSTEM DEVELOPMENT EFFORTS


TABLE OF
CONTENTS


Project Management

Details of Finding ............................................................................................................................1

Recommendations and Comments ...................................................................................................6


Appendices

1. Objective, Scope and Methodology ...........................................................................................8

2. Prior Reports ..............................................................................................................................9

3. Management Comments ..........................................................................................................10
NAVAL REACTORS INFORMATION TECHNOLOGY SYSTEM
DEVELOPMENT EFFORTS

PROJECT        In 2006, the Naval Reactors Program (Naval Reactors) initiated
MANAGEMENT     an effort to reduce overhead costs associated with duplicative
               services among its prime contractors that resulted in the decision to
               develop an integrated Enterprise Business System (EBS). The
               project is a multi-year, multi-million dollar development effort that
               will be completed using a phased approach and will include
               procurement, finance, human resources and logistics modules. The
               first phase of the EBS development effort was the procurement
               module, which started in 2007 and had an estimated cost of more
               than $12 million. During the early stages of the procurement
               module's development, program officials spent more than
               $5 million on software programming, system integration and
               hardware and software purchases. However, project officials
               indicated that specific project planning documentation associated
               with these costs was never developed.

               In 2009, Naval Reactors management initiated an independent
               internal review of the procurement module development efforts.
               The assessment determined that the project was not following
               existing project management practices and guidance designed to
               help ensure successful planning and execution. In particular, the
               review noted that the development effort lacked a clearly defined
               scope, budget and project execution plan. These components
               would have been critical to the implementation of an Earned Value
               Management System (EVMS), enabling comparison of actual
               performance of work scope, cost and schedule to a baseline plan,
               while also using change control procedures to document any
               revisions to the agreed-upon baseline plan. In response to the
               internal assessment, Naval Reactors implemented several
               corrective actions, which included a formally approved project
               execution plan that defined the project's scope, schedule and
               budget, as well as defined roles and responsibilities for project
               team members.

               Although positive steps were taken to improve the management
               and development efforts for EBS, our review determined that
               weaknesses remained related to the planning and execution of the
               project. Specifically, we determined that Naval Reactors officials
               and the project contractors had not fully considered the use of a
               commercial-off-the-shelf (COTS) product prior to upgrading and
               modernizing EBS. Furthermore, the development effort had not
               been reported as an information technology (IT) investment to the
               Office of Management and Budget (OMB), as required.




Page 1                                                          Details of Finding
                           Project Planning and Execution

         We found that Naval Reactors had not fully analyzed options
         related to the acquisition/development of EBS and had encountered
         delays in the development effort. In particular, Naval Reactors
         officials had not adequately considered the use of a COTS product
         when the decision was made to upgrade and modernize the
         financial management components of EBS. Specifically, officials
         did not develop a detailed analysis of the costs and benefits of
         various alternatives to implementing the new information system,
         including consideration of security requirements and maintenance
         costs. Although we were told that the decision to proceed with
         custom development rather than a COTS product was made by a
         high ranking program official, no other information was available
         to support the decision. As noted by OMB Circular A-127,
         Financial Management Systems, agencies should utilize COTS
         products when upgrading financial management systems, including
         core financial management, procurement, payroll and budget
         formulation systems. Although OMB guidance and the EBS
         project mission statement recommended that the development
         effort utilize a COTS product, it was ultimately decided that the
         system would be developed internally. According to the Carnegie
         Mellon Software Engineering Institute, the utilization of COTS
         products can support important goals such as improving the quality
         and performance of systems, developing them more quickly and
         sustaining them in a more cost-effective manner. As Naval
         Reactors embarks on future system development efforts,
         completing in-depth analysis related to the utilization of COTS
         products will remain important.

         We also found that completion of the final two components of the
         first phase of EBS – Receiving and Inventory – were delayed and,
         as a result, the expected completion date was pushed back.
         Although Naval Reactors had completed 8 of 10 EBS modules at
         the time of our review, it had not met milestones related to
         programming, testing and user acceptance for the final modules.
         While a Naval Reactors Headquarters official commented that the
         effort was on schedule, we learned that in March 2012, the
         completion date for the EBS Project was changed to August 2012,
         4 months after the original baseline completion date. As a result of
         the delay and additional test work that needed to be completed, the
         project's total estimated costs were expected to increase by at least
         $700,000. At the time of our review, however, we were unable to
         obtain justification for the additional estimated costs to complete
         the final modules even though such evidence was required by the
         EBS change management plan.



Page 2                                                    Details of Finding
                                            Investment Reporting

                     Naval Reactors had not ensured that the EBS project was
                     supported by a capital asset plan. Even though the estimated cost
                     was more than $12 million for the first phase, EBS was not
                     reported as a Major IT Investment to the Department of Energy
                     (Department) or OMB. OMB requires that high value IT
                     investments such as EBS are subject to increased oversight
                     because of the significant cost and potential risk to the
                     Government. Specifically, OMB defines a Major IT Investment as
                     having importance to the mission or functions of the agency,
                     significant program or policy implications, and having high
                     development, operating or maintenance costs. For projects that are
                     dual-funded, such as EBS, OMB mandated that one agency submit
                     the required budgetary documentation for the project. We noted
                     that the 2009 internal assessment indicated the requirement to
                     develop a capital asset plan and submit it to OMB. However,
                     program officials had yet to take action to address this aspect of the
                     assessment at the time of our review. While we do not recommend
                     that Naval Reactors take action to develop a capital asset plan for
                     the first phase of EBS, it is important that officials ensure future
                     development efforts are supported by capital asset plans to help
                     provide adequate oversight and transparency of the project.

Project Management   The issues identified occurred, in part, because Naval Reactors did
Approach             not always follow Federal and/or programmatic policies and
                     procedures to support EBS project planning and reporting efforts.
                     Specifically, Naval Reactors did not follow existing programmatic
                     guidance and project management practices, including Naval
                     Reactors Procedure Manual 45A, which was replaced by
                     Department Order 413.3B, Program and Project Management for
                     the Acquisition of Capital Assets. Naval Reactors officials also did
                     not take into consideration specific requirements set forth by
                     OMB. In addition, we found that a lack of coordination between
                     the EBS project stakeholders and team members, as well as
                     inadequate tracking of project tasks, may have contributed to
                     issues identified regarding the status of the project.

                                       Project Planning and Reporting

                     Although best practices suggest that an alternative analysis be
                     conducted to ensure the most cost effective method of
                     development is chosen, we found the development of an in-house
                     system versus a COTS product was based on the decision of a
                     senior Naval Reactors official even though no alternative analysis
                     was documented. In particular, a Naval Reactors Federal official



Page 3                                                                Details of Finding
         explained that the program must retain sufficient in-house
         expertise to maintain and modify, as necessary, the EBS software
         instead of being reliant on an outside software company.

         While relying on in-house expertise in lieu of outside vendors
         could potentially strengthen the reliability of EBS, we noted that it
         was still important to conduct a cost-benefit analysis to ensure that
         government resources were allocated efficiently. Department
         Order 413.3B states that officials should plan for the best cost and
         benefit life-cycle cost alternative, and the project should provide
         the greatest value to the Department. In addition, as noted by
         OMB, agencies should initiate the acquisition of new IT assets
         only when no existing alternative can meet the need, to simplify or
         otherwise redesign work processes to reduce costs, and to reduce
         project risk by avoiding custom designed components and ensuring
         involvement and support of users in the design and testing of the
         asset. Also, the Federal Acquisition Regulation requires that
         agencies perform acquisition planning and conduct market
         research for all acquisitions to ensure that the most suitable
         approach is utilized.

         Furthermore, Naval Reactors had not developed a capital asset plan
         because the EBS project team believed that the system did not
         meet the thresholds or definitions for submitting an Exhibit 300 to
         OMB. Specifically, a Naval Reactors official stated that the EBS
         project had not met the criteria for submitting an Exhibit 300.
         However, we noted that the scope and magnitude of the EBS
         project met the criteria for a Major IT Investment as defined by
         OMB. In addition, we noted that Naval Reactors did not take the
         Navy-funded portion of the project into consideration or the OMB
         reporting requirements for a dual-funded project. Once the EBS
         project team adopted Naval Reactors Procedure Manual 45A,
         contractor officials determined that it should have been reported to
         the Department and OMB as an IT investment because it exceeded
         the $500,000 threshold for a financial system. However, Federal
         officials had not reported the required information.

                         Coordination and Project Tracking

         Although identified in the internal assessment, coordination
         weaknesses among those responsible for the development effort
         continued, and may have contributed to delays in completing the
         first phase of EBS. In particular, we determined that coordination
         issues related to roles and responsibilities combined with a lack of
         centralized tracking of project tasks resulted in delays to the
         project. For example, we noted that while the EBS Program
         Manager at the site was assigned full responsibility for the

Page 4                                                    Details of Finding
               successful implementation of EBS, this individual did not have the
               authority to make programming decisions for the project. Instead,
               these decisions were directed by a Naval Reactors Headquarters
               official. In addition, the internal assessment noted that Naval
               Reactors Headquarters was taking on more of a participatory role
               rather than an oversight function, leading project team members to
               question who was responsible for the project. Even though a
               formal Communication Plan that outlined roles and responsibilities
               was approved in October 2009, we noted that coordination issues
               still existed 3 years later, as demonstrated by conflicting statements
               from various officials regarding the status of the first phase of the
               EBS project.

               While the lack of full coordination alone did not necessarily result
               in the project being behind schedule, the effect of such
               communication issues were exacerbated by inadequate tracking of
               project tasks. For instance, another independent review by a Naval
               Reactors contractor led team determined that unfulfilled project
               tasks were being tracked in multiple systems, a problem that
               affected the development of the final components of EBS –
               Receiving and Inventory. The decentralized tracking of unfulfilled
               project tasks may have also contributed to conflicting statements
               regarding the completion status of the various development
               components that we were provided during our discussions with the
               EBS Program Manager and Headquarters officials. Had officials
               implemented an effective mechanism for tracking project progress,
               tasks that were behind schedule could have been addressed in a
               coordinated manner by everyone involved in the project.

Path Forward   To its credit, Naval Reactors had taken a number of actions in
               response to the 2009 internal assessment, including the
               development of project plans, schedules and budgets. In addition,
               Naval Reactors took recent action subsequent to our audit work by
               requesting that its contractor conduct a cost-benefit analysis to
               determine whether to develop the EBS finance module in-house or
               utilize a COTS product. However, absent a well-defined schedule,
               scope and budget that includes established baselines and
               deliverables, future IT projects, including the remaining EBS
               phases, run a greater than necessary risk of cost overruns and
               schedule delays. Furthermore, without the required OMB
               submissions of project information, the remaining Major IT
               Investment phases of the project may not receive necessary Federal
               oversight and fiscal transparency. In addition, lacking adequate
               analyses, future system development efforts undertaken by Naval
               Reactors may continue to develop in-house projects even though a
               more cost-effective COTS solution may exist.



Page 5                                                          Details of Finding
RECOMMENDATIONS    We believe the issues identified provide valuable lessons learned
                   that can be applied to future system development efforts.
                   Accordingly, to improve the effectiveness of the Naval Reactors
                   system development practices, we recommend that the
                   Administrator, National Nuclear Security Administration, direct
                   the Naval Reactors Laboratory Field Office to:

                        1. Ensure that Federal and Department project management
                           regulations are followed when proceeding with system
                           development efforts, including performing cost/benefit
                           analyses, as appropriate, to ensure that the method
                           selected for IT development efforts provide the greatest
                           return on investment;

                        2. Ensure that capital asset plans are completed for all IT
                           investments and submitted to OMB, as appropriate; and,

                        3. Conduct internal assessments, as necessary, to ensure that
                           system development projects are effectively managed.

MANAGEMENT         Management generally concurred with the report's recommendations
REACTION AND       and indicated that it will take action to address our
AUDITOR COMMENTS   recommendations. Management commented that the vision of the
                   EBS was to consolidate numerous COTS business computer
                   programs into a single integrated system. In addition, management
                   agreed that capital asset plans should be developed and submitted to
                   OMB, as appropriate. Furthermore, management stated that it was
                   devoted to improving its system development procedures and
                   performance as well as coordination and communication with prime
                   contractors.

                   Management expressed concerns with a number of assertions in
                   our report. In particular, management stated that a COTS product
                   was considered as part of a "make versus buy" analysis prior to
                   upgrading and modernizing the financial components of EBS.
                   While we agree that an analysis was conducted by the prime
                   contractor, it was not approved by Naval Reactors officials because
                   it did not align with the goals and objectives of the project. Naval
                   Reactors disclosed in the disapproval that it was evaluating
                   different approaches to EBS streamlining and support and would
                   provide the prime contractors with additional direction.

                   Although management commented that sufficient tracking tools were
                   in place for assessing progress of the EBS project, we found
                   evidence indicating that tracking tools were not always effective. In
                   particular, we noted that an independent review of the EBS project
                   conducted in January 2012 by a Naval Reactors contractor led team


Page 6                                          Recommendations and Comments
         identified various issues related to tracking project tasks, including
         both informal and inconsistent methods used to track the progress of
         certain issues.

         Management's comments are included in their entirety in
         Appendix 3.




Page 7                                                           Comments
Appendix 1

OBJECTIVE     To determine whether the Naval Reactors Program (Naval
              Reactors) effectively managed its systems development efforts.

SCOPE         The audit was performed between October 2011 and December
              2012, at Naval Reactors Laboratory Field Office and the Bechtel
              Marine Propulsion Corporation in West Mifflin, Pennsylvania, and
              Naval Reactors Headquarters in Washington, DC. The audit was
              limited to the review of Naval Reactors system development
              efforts.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and regulations, including
                       those pertaining to information technology project
                       management;

                   •   Reviewed applicable standards and guidance issued by
                       the Office of Management and Budget and the National
                       Institute of Standards and Technology;

                   •   Reviewed prior reports issued by the Office of Inspector
                       General and the U.S. Government Accountability Office;
                       and,

                   •   Held discussions with officials from Naval Reactors
                       Laboratory Field Office, Headquarters and Site Support
                       Contractors.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objectives. Accordingly, we
              assessed significant internal controls and Naval Reactors
              implementation of the GPRA Modernization Act of 2010 and
              determined that it had not established performance measures for
              system development. Because our review was limited, it would
              not have necessarily disclosed all internal control deficiencies that
              may have existed at the time of our evaluation. We did not rely on
              computer-processed data to satisfy our objectives.

              Management waived an exit conference.




Page 8                                     Objective, Scope and Methodology
Appendix 2

                                     PRIOR REPORTS

  •   Audit Report on The Department's Capital Planning and Investment Control Activities
      (DOE/IG-0841, September 2010). The Department of Energy (Department) had not
      effectively implemented a capital planning and investment control process for controlling
      and managing information technology (IT) spending. Specifically, management tools
      required by the Office of Management and Budget, such as IT investment portfolios and
      capital asset plans, which enable the Department to select and control its IT investments,
      had not been properly implemented. Program and site officials had either not identified
      or had misclassified investments, valued at more than $371 million, in their IT
      investment portfolios. In addition, Major IT Investments used to help accomplish the
      mission of the Department were not always supported by required capital asset plans.
      Such plans are necessary to ensure that IT initiatives are implemented in a timely and
      cost effective manner. These issues were due, in part, to problems with the Department's
      policy and guidance. In particular, guidance issued by the Department's Office of the
      Chief Information Officer was not consistent with Federal requirements related to
      identifying and reporting Major IT Investments. As a result, IT capital planning activities
      did not provide Department senior management with timely and accurate information
      essential for making informed decisions about investments that compete for limited
      resources.

  •   Audit Report on The Management of the National Nuclear Security Administration's
      Classified Enterprise Secure Network Project (DOE/IG-0823, September 2009). We
      found that neither the planning for nor the execution of the Enterprise Secure Network
      (ESN) had been effective. Despite 9 years of development and expenditure of at least
      $153 million, ESN went fully operational 3 years after its planned completion date.
      While capable of transmitting classified data, approximately 150 software applications
      used for classified processing had not been certified or approved for operation on the
      network. Furthermore, although justified and planned as a network provider for all of the
      National Nuclear Security Administration's (NNSA) Advance Simulation and Computing
      supercomputers and other classified systems, the network lacked sufficient capacity for
      such traffic, which resulted in the continued operation and maintenance of a separate
      classified network. These issues were attributable, in large part, to problems with
      planning and management of the ESN effort. For example, in spite of the Department
      requirements to the contrary, ESN planning and development did not incorporate project
      management controls and protections required for efforts anticipated to cost more than
      $20 million. As a result, NNSA had not properly tracked project costs for the first 7
      years of the development effort.




Page 9                                                                            Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 10                            Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
                                                                    IG Report No. DOE/IG-0879

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
